July 2005
Report No. 05-027


Maximum Efficiency, Risk-focused,
Institution Targeted (MERIT) Eligibility
Process
                                                                                                         Report No. 05-027
                                                                                                                 July 2005

                                    Maximum Efficiency, Risk-focused,
                                    Institution
                                           TABLETargeted (MERIT) Eligibility Process
                                                  OF CONTENTS
                                    Results of Audit

Background and                      The FDIC's MERIT eligibility criteria and screening process for determining an
                                    institution's eligibility for examination under MERIT guidelines are adequate.
Purpose of Audit
                                    The MERIT eligibility criteria include a range of appropriate banking risk
                                    indicators that should identify those institutions with a higher risk profile that do
The FDIC’s Division of
                                    not qualify for a streamlined examination. Also, about 18 months after launching
Supervision and Consumer
                                    this streamlined examination program, the FDIC conducted an evaluation of the
Protection (DSC) is
                                    MERIT guidelines which resulted in expanding, strengthening, and revising the
responsible for conducting
                                    MERIT eligibility criteria. Further, for the examinations we reviewed, examiners
streamlined safety and
                                    adequately applied the FDIC’s MERIT eligibility criteria and screening process
soundness examinations
                                    performed during pre-examination planning to provide reasonable assurance that
under the Maximum
                                    only low-risk institutions qualified for a MERIT examination.
Efficiency, Risk-focused,
Institution Targeted (MERIT)
                                    However, we found that the 33 pre-examination planning (PEP) memoranda we
examination guidelines.
                                    reviewed did not always clearly reflect the decisions made about an institution’s
From May 1, 2002, through
                                    MERIT eligibility. Although MERIT guidance states that the PEP memorandum
September 30, 2004, the
                                    should include a comment addressing the use of MERIT guidelines, the FDIC has
FDIC conducted 2,290
                                    not updated its PEP memoranda guidance since September 2001 -- before MERIT
MERIT examinations.
                                    guidelines went into effect. Additional information reflecting the MERIT
                                    eligibility decision would increase assurance that the MERIT criteria are
An FDIC Examiner-in-
                                    adequately considered and that examination procedures are planned
Charge (EIC) determines the
                                    commensurate with the relevant existing and potential risks at an institution.
eligibility of an institution for
a safety and soundness
examination under MERIT             Recommendation and Management Response
guidelines during the pre-
examination planning phase          The report includes two recommendations for updating and clarifying
by applying MERIT                   pre-examination planning guidance. FDIC management concurred with both
eligibility criteria to the         recommendations and we consider its planned actions to be responsive.
FDIC's knowledge of an
institution, its size,
                                       MERIT Eligibility Screening Process
complexity, and risk profile.
                                        Step 1.       Step 2.       Step 3.     Step 4.
                                        Institution   Capital       Composite   Eligibility Criteria
The objective of this audit             Size          Status        Rating at
was to determine whether the                                        Last Two
FDIC's process for                                                  Exams
determining an institution's            $1 billion    Well          1 or 2      • Stable management
                                        or less       Capitalized               • No recent change in control
eligibility for an examination
                                                                                • No significant adverse external factors
under MERIT guidelines
                                                                                • No de novo, niche, or banks identified on
adequately considers the                                                           DSC’s Quarterly Lending Alert (QLA)
appropriate risk factors.                                                       • No significant change in risk profile
                                                                                   evident from offsite analysis or monitoring
                                                                                   systems
                                                                                • Effective formal or informal loan grading
                                                                                   systems
                                                                                • No significant new business lines
To view the full report, go to                                                  • No component rating of 3, 4, or 5
www.fdicig.gov/2005reports.asp
                                       Source: Regional Directors Memorandum 2004-001, dated January 27, 2004.
                             TABLE OF CONTENTS

BACKGROUND                                                            1
    Risk-focused Examination Process and MERIT Guidelines             1
    Pre-examination Planning                                          2

RESULTS OF AUDIT                                                      3

FINDING A: MERIT ELIGIBILITY CRITERIA AND                             4
SCREENING PROCESS
    MERIT Eligibility Criteria – Eight Risk Indicators               4
    FDIC Evaluated and Strengthened the Original MERIT Eligibility   5
    Criteria
    MERIT Eligibility Screening Process                              6

FINDING B: PRE-EXAMINATION PLANNING PROCESS AND                       8
GUIDANCE
    Regional Directors Memoranda Addressing Pre-Examination          8
    Planning
    Documentation of MERIT Eligibility Decisions and Examination     9
    Scope
    PEP Process Guidance Has Not Been Updated                        10
    Improved Documentation Increases Assurance that MERIT            11
    Eligibility Decision and Examination Scope are Commensurate
    With Institution Risk


RECOMMENDATIONS                                                      11

CORPORATION COMMENTS AND OIG EVALUATION                              12

APPENDICES
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                        13
APPENDIX II: MERIT PROGRAM GUIDELINES                                16
APPENDIX III: SAMPLE PRE-EXAMINATION PLANNING                        18
              MEMORANDUM
APPENDIX IV: CORPORATION COMMENTS                                    20
APPENDIX V: MANAGEMENT RESPONSE TO                                   22
             RECOMMENDATIONS

TABLES
Table 1: MERIT Eligibility Screening Process                          7
Table 2: Summary of 33 PEP Memoranda Comments on the Use of          10
MERIT Guidelines
Federal Deposit Insurance Corporation                                                             Office of Audits
801 17th St., NW Washington, DC 20434                                                Office of Inspector General

DATE:                              July 29, 2005


MEMORANDUM TO: Michael J. Zamorski, Director
               Division of Supervision and Consumer Protection


FROM:                              Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                   Assistant Inspector General for Audits


SUBJECT:                           Maximum Efficiency, Risk-focused, Institution Targeted (MERIT)
                                   Eligibility Process
                                   (Report No. 05-027)


This report presents the results of our audit of the Federal Deposit Insurance Corporation (FDIC)
Division of Supervision and Consumer Protection’s (DSC) process to determine eligibility for a
streamlined safety and soundness examination using the Maximum Efficiency, Risk-focused,
Institution Targeted (MERIT) examination guidelines (MERIT examination). The objective of
this audit was to determine whether DSC’s process for determining an institution's eligibility for
a MERIT examination adequately considers the appropriate risk factors. Specifically, we
reviewed the criteria, risk factors, and process that DSC uses in making a determination as to
whether an institution is eligible for a MERIT examination. Appendix I of this report discusses
our audit objective, scope, and methodology in detail.


BACKGROUND

Since 1997, DSC has conducted process improvement efforts that have changed its approach to
examinations and supervision, including implementing a risk-focused examination process and
streamlined MERIT examination procedures at banks with low-risk profiles.

Risk-focused Examination Process and MERIT Guidelines

On October 1, 1997, the FDIC, in conjunction with the Federal Reserve Board (FRB) and
Conference of State Bank Supervisors (CSBS), began implementing a new risk-focused
examination process designed to focus safety and soundness examinations on bank functions that
pose the greatest risk exposure to the FDIC insurance funds. The objective of a risk-focused
examination is to effectively evaluate the safety and soundness of the bank, including the
assessment of risk management systems, financial condition, and compliance with applicable
laws and regulations, while focusing resources on the bank’s highest risks. The exercise of
examiner judgment to determine the depth of review in each functional area is crucial to the
success of the risk-focused supervisory process.
In 2000, DSC recognized the need to adjust to a changing banking industry and began a series of
process redesign efforts to evaluate its own organization. The DSC’s Process Redesign program
focused on strategic changes in examination processes and economies in personnel and
infrastructure. In 2001, Process Redesign I resulted in recommendations to streamline DSC’s
examination, supervision, and application review processes. One of the changes included
streamlining the pre-examination process and loan reviews.

In 2002, Process Redesign II focused on the effectiveness and efficiency of examinations of
1 and 2 rated, well-capitalized banks with total assets of $250 million or less. Based on the low-
risk profile of these institutions, DSC concluded that maximum use of risk-focused examination
procedures was warranted and developed new target ranges for loan penetration coverage.1 DSC
implemented MERIT examination guidelines in April 2002. An interdivisional group (the
MERIT Evaluation Team) subsequently evaluated the original MERIT examination program
and, based on the team’s conclusions, DSC expanded the MERIT guidelines in February 2004 to
include institutions that are well capitalized with total assets of $1 billion or less and a 1 or 2
composite rating for the institution’s two most recent examinations. Additional criteria for
inclusion or exclusion of financial institutions in the MERIT guidelines are outlined in
Appendix II.

From May 1, 2002 through September 30, 2004, the FDIC conducted 5,976 safety and soundness
examinations, of which 2,290 were conducted as MERIT examinations.

Pre-examination Planning

According to DSC’s Risk Management Manual of Examination Policies, thorough pre-
examination planning is critical to the efficient completion of an examination. Pre-examination
planning will determine if the MERIT guidelines can be used. It can also help determine staffing
needs for MERIT examinations, including the number and expertise of personnel required.
Finally, pre-examination planning can enhance the general orderliness and efficiency of an
examination. The Examiner-in-Charge (EIC) is responsible for developing an examination plan
that is commensurate with the level of risk in each functional area and for documenting this plan
in a scope memorandum referred to as the Pre-Examination Planning (PEP) Memorandum. Pre-
examination planning sets scope decisions in terms of work to be performed, areas to receive
special attention, and decisions to limit procedures.

To provide EICs and examiners with a tool to focus on risk management and establish an
appropriate examination scope, examination procedure modules were developed jointly by the
FDIC and the FRB. Specifically, an examination procedure module, Risk Scoping Activities, was
developed and issued in October 1997 and was updated in March 2005. This module identifies
and lists several activities to be completed by examiners during the pre-examination planning
process. This module helps the EIC determine the examination scope, allocate staff resources,
and prepare a PEP memorandum.


1
  The loan penetration ratio is calculated by dividing the total dollar volume of nonhomogenous loans reviewed by
the total dollar volume of nonhomogenous loans. Nonhomogenous loans may be broadly defined as loans that are
commercial or agricultural in nature and that generally require individual loan review.


                                                        2
Additionally, DSC has issued guidance for the preparation of PEP memoranda in Regional
Directors Memorandum 2001-037, dated September 12, 2001. This memorandum focused
attention on preparing a PEP memorandum that conveys and documents the EIC’s conclusions
regarding the allocation of examination resources according to perceived risk. Memorandum
2001-037 also emphasized that the PEP process be more concise and that comments be prepared
on an “exception only” basis, according to areas of higher-than-normal or lower-than-normal
perceived risk.


RESULTS OF AUDIT

The FDIC's MERIT eligibility criteria and screening process for determining an institution's
eligibility for examination under MERIT guidelines are adequate. The MERIT eligibility criteria
include a range of appropriate banking risk indicators that should identify those institutions with
a higher risk profile that do not qualify for a streamlined examination. Also, about 18 months
after launching this streamlined examination program, the FDIC conducted an evaluation of the
MERIT guidelines which resulted in expanding, strengthening, and revising the MERIT
eligibility criteria. Further, for the examinations we reviewed, examiners adequately applied the
FDIC’s MERIT eligibility criteria and screening process performed during pre-examination
planning to provide reasonable assurance that only low-risk institutions qualified for a MERIT
examination.

However, the PEP memoranda that we reviewed did not always clearly reflect the decisions
made about an institution’s MERIT eligibility. Although MERIT guidance states that the PEP
memorandum should include a comment addressing the use of MERIT guidelines, the FDIC has
not updated its PEP memoranda guidance since September 2001, before MERIT guidelines went
into effect. Additional information reflecting the MERIT eligibility decision would increase
assurance that the MERIT criteria are adequately considered and that examination procedures are
planned commensurate with the risks at an institution.




                                                3
FINDING A: MERIT ELIGIBILITY CRITERIA AND SCREENING PROCESS

The MERIT examination guidelines were established to apply to banks that meet basic eligibility
criteria, which includes having total assets of $1 billion or less, are well capitalized, and have
satisfactory regulatory ratings defined as a 1 or 2 composite rating received at the last two safety
and soundness examinations. We viewed the dollar threshold in total assets, capitalization
requirement, and composite regulatory ratings as basic eligibility criteria. We viewed the
remaining eight criteria in the MERIT guidelines as risk indicators that essentially screen out
those institutions that are not regarded as being low risk institutions:

         • stable management;
         • no recent change in control;
         • no significant adverse external factors;
         • no de novo, niche, or banks identified on DSC’s Quarterly Lending Alert (QLA);2
         • no significant change in risk profile evident from offsite analysis or monitoring systems;
         • effective formal or informal loan grading systems;
         • no significant new business lines; and
         • no component rating of 3, 4, or 5.

Banks meeting the criteria are then divided into two categories for the purpose of determining a
range of nonhomogenous loan penetration ratios:

         • Category 1 – Banks with an asset quality rating of 1 at the last examination (including
         state banking authority examinations accepted by the FDIC); and

         • Category 2 – Banks with an asset quality rating of 2 at the last examination.

Category 1 banks have a target loan penetration of 15-25 percent, and Category 2 banks have a
target loan penetration of 20-30 percent.

MERIT Eligibility Criteria – Eight Risk Indicators

We reviewed the eight MERIT risk indicators to understand how each correlated to the common
risk categories or risk definitions used by banks and regulators. We also determined whether
these risk indicators correlated to one or more of the CAMELS rating components established in
the Uniform Financial Institutions Rating System (UFIRS) used by bank regulators to ensure that
all financial institutions are evaluated in a comprehensive and uniform manner. CAMELS rating
factors address the adequacy of Capital, the quality of Assets, the capability of Management, the
quality and level of Earnings, the adequacy of Liquidity, and the Sensitivity to market risk.



2
 The QLA is a DSC internal reporting mechanism for identifying those insured institutions engaged in lending
activities that inherently pose an increased risk to the institution, including subprime lenders, payday lenders, and
other high-risk lenders. The DSC regions report this information to DSC’s Washington office quarterly.




                                                           4
According to The Financial Services Roundtable,3 regulatory definitions for the various
categories differ somewhat from those used by banks; however, regulatory agencies generally
agree that banks face strategic, credit, market, liquidity, operational, compliance, legal,
regulatory, and reputation risks. For example, the FDIC focuses on credit, market, operating or
transaction, reputation, strategic, compliance, legal, liquidity, and other risks when evaluating an
institution’s management. According to U.S. bank regulator examination manuals and a Basel
Committee on Banking Supervision4 publication entitled, Core Principals for Effective Banking
Supervision, banking supervisors need to understand these key risks and be satisfied that banks
are adequately measuring and managing them. We found that the eight MERIT risk indicators
generally correlated to one or more of the common risk categories used by banks and regulators.

We also determined whether the eight MERIT risk indicators correlated to the CAMELS rating
components used by bank regulators. We found that the eight MERIT risk indicators generally
correlated to some aspect of one or more of the CAMELS rating components. It is important that
the eight MERIT risk indicators correlate to one or more of the CAMELS rating components
because the UFIRS that was adopted by the Federal Financial Institutions Examination Council
(FFIEC) has proven to be an effective internal supervisory tool for evaluating the soundness of
financial institutions on a uniform basis and for identifying those institutions requiring special
attention or concern.

We further concluded that in addition to adequately addressing existing risk in an institution,
certain MERIT risk indicators were appropriate and forward-looking, that is, they acted as red
flags to identify potential risks that might be present in an institution. Examples of forward-
looking MERIT risk indicators include:

         •   banks identified on DSC’s QLA,
         •   no significant changes in risk profile evident from off-site analysis or monitoring
             systems, and
         •   no significant new business lines.

FDIC Evaluated and Strengthened the Original MERIT Eligibility Criteria

In March 2002, the FDIC introduced the MERIT guidelines with the purpose of implementing
streamlined examinations guidelines in well-rated banks with total assets of $250 million or less,
while maintaining the quality and integrity of the examination process. After approximately 18
months, the MERIT Evaluation Team evaluated the MERIT examination program and
recommended that the initial MERIT eligibility criteria be expanded and enhanced, including
raising the total asset limit for MERIT eligibility from $250 million to $1 billion. The MERIT

3
  The Financial Services Roundtable promotes the business of banking and encourages the development of sound
banking and financial policies and practices. Membership in The Financial Services Roundtable is reserved for the
125 largest banking and thrift companies in the United States. The roundtable sponsors independent research and
analysis of issues relating to the future development of the nation’s banking and financial system.
4
  The Basel Committee on Banking Supervision is a committee of banking supervisory authorities that was
established in 1975. It consists of senior representatives of banking supervisory authorities and central banks from
Belgium, Canada, France, Germany, Italy, Japan, Luxembourg, Netherlands, Sweden, Switzerland, the United
Kingdom and the United States.



                                                          5
Evaluation Team found that banks with $1 billion in assets or less had many characteristics
similar to the $250 million-and-under banks and that FDIC’s supervisory approach to these
institutions was similar.

In January 2004, along with raising the MERIT threshold from $250 million in total assets to
$1 billion, the FDIC made enhancements to the eligibility criteria. Specifically, the FDIC
expanded and modified the MERIT procedures for all examinations commencing after
January 31, 2004 as follows:

        “Well-Capitalized” banks having a 1 or 2 composite rating was changed to “Well-
         Capitalized” banks having a 1 or 2 composite rating for the two most recent
         examinations.

        The basis for selecting the target loan penetration ratio range was changed from the
         CAMELS composite rating to the asset quality component rating. In addition, this
         change was accompanied by a change from reviewing the last two examinations’
         composite rating to reviewing the last examination’s asset quality rating.

        The subprime lender5 exclusion was broadened to encompass all banks identified on
         DSC’s QLA.

MERIT eligibility criteria need to be occasionally reviewed and updated because risks change
quickly in the current U.S. banking environment. If the FDIC does not occasionally update the
MERIT eligibility criteria, or whenever circumstances indicate a material change in the
underlying assumptions about the associated risks, the FDIC risks initiating MERIT
examinations without consistent consideration of new and emerging risk factors. This could
result in MERIT examinations being conducted on institutions with high exposure to emerging
risks or eliminating institutions from MERIT based on risks that may no longer be relevant. By
revisiting the MERIT eligibility criteria, the FDIC’s evaluation of the eligibility criteria ensures
that they remain relevant and in a state of continual improvement. We viewed the FDIC’s
evaluation of the MERIT examination program as a practice that should continue, especially
when circumstances indicate that material changes are occurring in the MERIT criteria’s
underlying risk assumptions.

MERIT Eligibility Screening Process

Thorough pre-examination planning is critical to the efficient completion of an examination.
Pre-examination planning will determine whether MERIT guidelines can be used and will help
set scope decisions in terms of work to be performed and areas to receive special attention.



5
  The term subprime refers to the credit characteristics of borrowers who typically have weakened credit histories
that include payment delinquencies, previous charge-offs, judgments, or bankruptcies. On January 31, 2001, the
Federal banking regulators issued expanded guidance for the examination of subprime lending activities. The
guidance applies to those institutions that deliberately target the subprime market as part of their business strategy
and have an aggregate credit exposure greater than or equal to 25 percent of Tier 1 capital.


                                                           6
Table 1 summarizes a four-step screening process that an EIC uses during pre-examination
planning to determine whether an institution qualifies for a safety and soundness examination
under streamlined MERIT guidelines.

 Table 1: MERIT Eligibility Screening Process
Step 1.     Step 2.      Step 3.                             Step 4.
Institution Capital      Composite Rating at                 Eligibility Criteria
Size        Status       Last Two Examinations               (see Appendix III for a detailed description)
$1 billion  Well                  1 or 2                     • Stable management
or less     Capitalized                                      • No recent change in control
                                                             • No significant adverse external factors
                                                             • No de novo, niche, or banks identified on
                                                               DSC’s QLA
                                                             • No significant change in risk profile
                                                               evident from offsite analysis or monitoring
                                                               systems
                                                             • Effective formal or informal loan grading
                                                               systems
                                                             • No significant new business lines
                                                             • No component rating of 3, 4, or 5
Source: Regional Directors Memorandum 2004-001, Maximum Efficiency, Risk-focused, Institution Targeted
(MERIT) Guidelines, dated January 27, 2004.

Our review of 33 PEP memoranda and associated examination data (Reports of Examination,
DSC’s Supervisory Tracking and Reporting Module data, and DSC’s correspondence files)
showed that the institutions that had been examined under MERIT guidelines met the MERIT
eligibility criteria. In addition, we reviewed and analyzed Supervisory Tracking and Reporting
Module data and applied the MERIT eligibility screening process to the 2,290 MERIT
examinations FDIC conducted from April 2002 through September 2004. Based on the data
available in the Supervisory Tracking and Reporting Module, we found no instances in which it
appeared that an institution did not meet MERIT eligibility criteria.




                                                     7
FINDING B: PRE-EXAMINATION PROCESS AND GUIDANCE

The FDIC needs to update its PEP process and guidance to promote a uniform format and
content for documenting the MERIT eligibility decision. Based on our review of the 33 PEP
memoranda in our sample, we found that they did not always clearly reflect the eligibility
decisions reached. As a result, there was limited assurance that the EIC had adequately
considered all MERIT criteria in making the eligibility determination and scoping MERIT
examinations.

Regional Directors Memoranda Addressing Pre-Examination Planning

Regional Directors Memorandum 2002-016, Maximum Efficiency, Risk-focused, Institution
Targeted (MERIT) Guidelines, dated March 27, 2002, implemented the initial MERIT guidelines
effective April 1, 2002. DSC expanded and modified the MERIT procedures as established in
Regional Directors Memorandum 2004-001, Maximum Efficiency, Risk-focused, Institution
Targeted (MERIT) Guidelines, dated January 27, 2004, and effective for all examinations
commencing after January 31, 2004. Memoranda 2002-016 and 2004-001 contain the following
guidance for EICs:

       As part of the pre-examination planning process, the EIC should utilize
       available resources (e.g., prior reports of examination; correspondence; UBPR
       [Uniform Bank Performance Report]; offsite monitoring tools; discussions
       with FOS [Field Office Supervisor], Case Manager, bank management and
       external/internal auditors; etc.) to determine if MERIT guidelines can be
       utilized. The Pre-Examination Planning Memorandum should include a
       comment addressing the use of MERIT guidelines.

The EIC determines the eligibility of an institution for a safety and soundness examination under
MERIT guidelines by applying MERIT eligibility criteria to the FDIC's knowledge of the
institution, its size, complexity, and risk profile. Once a MERIT examination commences,
streamlined examination procedures are performed to determine whether any concerns are
present that affect an institution’s ability to identify, measure, control, or monitor risks. If such
concerns are identified, the EIC contacts his/her Field Supervisor or Senior Examiner to discuss
the concerns, decide whether the examination scope should continue as planned (MERIT) or be
expanded as necessary. The MERIT guidelines are not intended to limit an examiner’s ability to
properly assess a bank’s risk profile or to be a substitute for examiner judgment.

Regional Directors Memorandum 2001-037, Revised Pre-examination Planning Memoranda,
dated September 12, 2001, states that the primary purpose of the PEP memorandum is to convey
and document examiners’ conclusions regarding allocation of examination resources according
to perceived risk. Memorandum 2001-037 also states that DSC’s Process Redesign initiative
concluded that the PEP process should be streamlined and made more efficient by eliminating




                                                  8
multiple layers of review. To facilitate efficiency, Memorandum 2001-037 revised the PEP
documentation process to accomplish the following:

        1. Require that PEP memoranda comments be prepared on an “exception only” basis,
           according to areas of higher-than-normal or lower-than-normal perceived risk.
        2. Encourage brief, bullet[ed] comments, not necessarily of report quality.
        3. Promote uniformity in both the format and content of the regions’ PEP memoranda.
        4. Eliminate hours data.6
        5. Include high-level performance ratios and financial data.
        6. Require formal examiner contact with the Case Manager during preplanning, which
           will be documented in PEP memoranda.
        7. Eliminate the need for regional office approval of PEP memoranda.
        8. Define the deadline for submission of PEP memoranda to be the last business day
           prior to the examination start date.

These revisions were designed to reduce the time examiners and reviewers spend composing,
editing, and reviewing PEP documents and result in more concise pre-examination planning
documents consistent with the stated purpose of the PEP memorandum: to allocate examination
resources according to perceived risk.

Documentation of MERIT Eligibility Decisions and Examination Scope

Our review of PEP memoranda from 33 examinations showed that the EIC’s comments
addressing the use of MERIT guidelines do not always contain an explanation regarding the
institution’s qualifications for a safety and soundness examination under MERIT guidelines.
Such an explanation would provide assurance that the EIC adequately assessed not only the
institution’s asset size, safety and soundness rating, and capital category, but also the eight other
criteria that an institution must meet to be eligible for a MERIT examination. More information
may be needed when the institution is not eligible for MERIT or if its eligibility status has
changed since the prior examination.

We found brief comments in 14 PEP memoranda that indicated the reason an institution qualified
and in some cases, the reason additional work would be conducted in a targeted area(s).
Conversely, we found 19 PEP memoranda that either stated that MERIT guidelines would be
used or mentioned some aspect of MERIT examination procedures that would be employed.
These memoranda did not explain the basis on which the institution qualified for MERIT or
whether the EIC intended to conduct the entire examination under MERIT guidelines or in
certain functional areas even though the bank was ineligible for a MERIT examination.
Examples of comments for each of the two categories are provided in Table 2 on the next page.




6
 Before the issuance of Memorandum 2001-037, PEP memoranda included a discussion regarding examination
hours (budgeted hours, average hours, and previous hours).


                                                    9
Table 2: Summary of 33 PEP Memoranda Comments on the Use of MERIT Guidelines
 MERIT Comments:                                                                     Memoranda     Memoranda
                                                                                     Considered     Needing
                                                                                      Adequate    Improvement
 1 Memorandum explained the MERIT eligibility decision; that is, it explained            14
   why the bank qualified or did not qualify for MERIT. Or, in some cases, the
   Memorandum explained the bank's transition from Non-MERIT (NM) to
   MERIT (M) or M to NM.

    Example 1, NM to M: “The bank is “Well Capitalized” with a composite
    rating of “2” at the last two examinations and current total assets of
    $125 million. Despite being on the Growth Monitoring System (GMS), the
    bank is eligible for a MERIT examination. The growth is well managed and the
    bank meets all other criteria for conducting a MERIT examination.”

    Example 2, NM to M: “The bank qualifies for MERIT, and it is anticipated
    that MERIT procedures will be used in all examination areas; however, the loan
    area will involve the use of some expanded procedures given the increased
    construction/development lending and previous examination criticisms,
    primarily related to credit administration. Additionally, examiner review of
    Bank Secrecy Act related policies and procedures will be increased over
    previous examinations and will include a review of the bank’s compliance with
    Bank Secrecy Act regulations, the USA Patriot Act, and financial recordkeeping
    regulations. On-the-job fraud training may also result in some expanded
    procedures being performed on a limited basis. Some limited review of the Call
    Report will also occur due to the previous examination comments about errors.”

    Example 3, M to NM: “S&S – MERIT examination procedures are not
    applicable and will not be used. MERIT is not applicable due to the “3” rated
    components and the ineffective loan grading system noted at the 2003 State
    examination.”

 2. Memorandum mentioned that MERIT guidelines would be used, however, no                             19
    explanation of the MERIT eligibility decision, why the bank qualified/did not
    qualify for MERIT.

   Example 4, NM to M: “This examination will be conducted using the
   outstanding MERIT procedures.”

   Example 5, NM to M: “The loan penetration ratio will range between 20-30%
   based on merit examination guidelines.”

                                                                                       42.4%        57.6%
Source: OIG analysis of PEP Memoranda.

PEP Process Guidance Has Not Been Updated

The FDIC has not updated its September 2001 guidance for documenting the PEP process to
reflect major changes in how a safety and soundness examination should be planned. The
MERIT guidance defined risk-focused criteria and provided a framework for pre-planning safety
and soundness examinations and risk-focusing examination procedures in institutions with low-
risk profiles (see Appendix II for details). However, the current PEP memorandum format does




                                                        10
not incorporate a uniform format and content for documenting the MERIT eligibility screening
process and MERIT eligibility decision.

Furthermore, the PEP memorandum example attached to Memorandum 2001-037 contained
instructions regarding the minimum information needed (see Appendix III). These instructions
state, “Examiners are not required to comment on areas subject to regular examination
procedures.”

The instructions within the Preliminary Risk Assessment section of the PEP memorandum are
not clear regarding the extent of the work to be done (i.e., use of full examination procedures vs.
MERIT guidelines vs. expansion of select procedures in targeted areas under MERIT
guidelines). The PEP memorandum guidance predated the advent of MERIT guidelines;
therefore, the instructions should be clarified regarding what constitutes “regular examination
procedures” since implementation of the MERIT guidelines. We agree that areas subject to full
examination procedures need not be discussed in PEP memoranda. However, to the extent that
determinations are made to revise or eliminate examination coverage based on risk, the basis for
these determinations should be discussed in the PEP memorandum.

Improved Documentation Increases Assurance that MERIT Eligibility Decision and
Examination Scope are Commensurate With Institution Risk

Brief comments describing how the EIC determined that the institution was MERIT-eligible
would support and assure that the decision to use MERIT guidelines was appropriate. This
additional information would increase assurance that the MERIT criteria are adequately
considered and that examination procedures are planned commensurate with relevant existing
and potential risks that are present in an institution.

RECOMMENDATIONS

We recommend that the Director, DSC:

(1) Update the Regional Directors Memorandum entitled, Pre-Examination Planning
    Memoranda, to include instructions for incorporating MERIT eligibility decisions into the
    PEP memoranda.

(2) Clarify what constitutes “regular examination procedures” in the Instructions found under
    the Preliminary Risk Assessment section of the PEP memorandum.




                                                11
CORPORATION COMMENTS AND OIG EVALUATION

On July 26, 2005, the Director, DSC, provided a written response to the draft report. The
response is presented in its entirety in Appendix IV of this report. DSC concurred with both
recommendations. A summary of the Director’s comments on each recommendation follows,
along with our evaluation of the response.

Recommendation 1: Update the Regional Directors Memorandum entitled,
Pre-Examination Planning Memoranda, to include instructions for incorporating MERIT
eligibility decisions into the PEP memoranda.

DSC’s Director concurred with this recommendation, stating that DSC will provide clarification
to examiners indicating that the PEP memoranda should discuss the basis of the decision to
examine an institution under the MERIT guidelines. This clarification, via written
memorandum, will be completed by March 31, 2006.

OIG Evaluation: This recommendation is resolved but will remain undispositioned and open
for reporting purposes until we have determined that the agreed-to corrective action has been
completed and is effective.

Recommendation 2: Clarify what constitutes “regular examination procedures” in the
Instructions found under the Preliminary Risk Assessment section of the PEP
memorandum.

DSC’s Director concurred with the intent of this recommendation but offered an alternative
corrective action. DSC noted that the PEP memorandum makes two different references to
examination procedures, referring to both “standard” and “regular” procedures. DSC pointed out
that the narrative section of the PEP memorandum refers to “standard examination procedures,”
which are defined in a footnote as the preparation of the Core Examination Documentation (ED)
Analysis or similar procedures. However, the instructions in the Preliminary Risk Assessment
section of the PEP memorandum example refer to “regular examination procedures.” DSC
agreed to amend the PEP memorandum example to “standard examination procedures” and
indicated that doing so will provide more clarity and more consistency throughout the document.

OIG Evaluation: This recommendation is resolved but will remain undispositioned and open
for reporting purposes until we have determined that the agreed-to corrective action has been
completed and is effective.

Appendix V contains a summary of management’s response to the recommendations and the
status of the recommendations as of the date of this report.




                                              12
                                                                                               APPENDIX I


                          OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether DSC’s process for determining an
institution's eligibility for a MERIT examination adequately considers the appropriate risk
factors. Specifically, we reviewed the criteria and risk factors that DSC uses in making a
determination as to whether an institution is eligible for a MERIT examination.

Scope and Methodology

We performed our audit from November 2004 through April 2005 in accordance with generally
accepted government auditing standards. To accomplish the audit objectives, we:

    •   reviewed DSC’s MERIT policies and procedures related to risk-focused examination
        planning methodology, risk factors, and scoping;

    •   reviewed FRB, Office of the Comptroller of the Currency, and Office of Thrift
        Supervision policies and procedures pertaining to risk-focused examination planning
        methodologies and risk factors;

    •   reviewed and analyzed a judgmental sample of Pre-examination Planning (PEP)
        Memoranda prepared by FDIC EICs during the period April 2002 through
        September 2004, and reviewed and analyzed available electronic Supervisory Tracking
        and Reporting Module data to ensure that the 2290 MERIT examinations conducted
        during this period were eligible under the selection criteria available in the data;

    •   reviewed and analyzed Reports of Examination related to the examinations that evolved
        from our sampled PEP memoranda;

    •   accessed, reviewed, and analyzed information from the Supervisory Tracking and
        Reporting and Summary Analysis of Examination Reports (SAER)7 modules of the
        FDIC’s Virtual Supervisory Information On the Net system for the examinations related
        to the sampled PEP memoranda;

    •   interviewed or corresponded with DSC policymakers in Washington, D.C., regional
        office management, and field office management as needed; and




7
  The SAER provides a historical record of an institution, and includes comments that briefly summarize an
examination’s findings. In developing SAER comments, emphasis is placed on the CAMELS components and
weaknesses identified in the report.



                                                      13
                                                                                  APPENDIX I


   •   reviewed DSC’s assessment of the MERIT examination program, specifically the
       assessment used to justify expansion of MERIT to additional institutions. DSC’s
       assessment led to recommendations for expansion of MERIT to additional financial
       institutions after January 31, 2004, as outlined in Transmittal 2004-001, Maximum
       Efficiency, Risk-focused, Institution Targeted (MERIT) Guidelines, dated
       January 27, 2004.

Reliance on Computer-based Data, Government Performance and Results Act, Fraud and
Illegal Acts, and Management Controls

We used computer-based data from the Supervisory Tracking and Reporting Module to apply the
MERIT criteria to the examinations conducted by FDIC from April 2002 through September
2004. We also used computer-based data as a supplemental source of information in conjunction
with supporting documents and as background information in generating a universe of
examinations from which to select our sample. Although we did not perform assessments of
computer-based data, no discrepancies between computer-based data and supporting
documentation came to our attention during the course of the audit. We did not find any MERIT
performance measures in FDIC activities related to the Government Performance and Results
Act. Our audit program did include steps for providing reasonable assurance of detecting fraud
or illegal acts. We did not identify any illegal acts or abuse or potential areas susceptible to
illegal acts or abuse. Additionally, we gained an understanding of relevant control activities
related to MERIT examinations by examining DSC-applicable policies and procedures as
presented in the DSC’s Risk Management Manual of Examination Policies and Regional
Directors Memoranda.

Pertinent Laws and Regulations

Section 10(d) of the Federal Deposit Insurance (FDI) Act requires that each appropriate federal
banking and thrift agency conduct a full scope, on-site examination of federally insured
depository institutions under its jurisdiction at least once during each 12-month period. The
minimum requirements of a full-scope examination are defined as the procedures necessary to
complete the mandatory pages of the uniform Report of Examination and evaluate all
components of the CAMELS rating system. Our testing of MERIT examinations and FDIC’s
compliance with laws and regulations was limited to the aforementioned parts of section 10(d) of
the FDI Act. Our review did not find any instances of FDIC noncompliance with pertinent laws
and regulations.

Summary of Prior Audit Coverage

The Office of Inspector General completed three prior reviews of the FDIC’s risk-focused
examination process and one review of the process for tracking and evaluating the impact of the
MERIT guidelines.

Audit Report No. 05-015, DSC’s Process for Tracking and Evaluating the Impact of the MERIT
Guidelines, was issued March 31, 2005. This audit focused on the adequacy of DSC’s tracking
and evaluation of the achievement of its goals for the MERIT guidelines. Specifically, the audit



                                               14
                                                                                APPENDIX I


assessed the adequacy of processes, reports, and other data that DSC management used in
monitoring MERIT examination coverage in financial institutions.

Audit Report No. 00-016, Follow-up Audit of the Implementation of the Risk-Focused
Examination Process, was issued May 5, 2000 as a supplement to the Audit Report No. 98-086,
Audit of the Implementation of the Risk-Focused Examination Process, which was issued
November 5, 1998. These two audits focused primarily on the implementation of risk-focused
examination procedures and workpaper and documentation uniformity. Audit Report
No. 01-016, Audit of DOS’s Use of Expanded and Impact Examination Procedures in the Risk-
Focused Examination Process, issued March 30, 2001, focused on workpaper support for risk-
focused examinations. The three reviews addressed risk-focused examination procedures but
primarily focused on examination support and documentation.




                                              15
                                                                                   APPENDIX II

                             MERIT PROGRAM GUIDELINES

Effective April 1, 2002, the FDIC implemented the MERIT program guidelines to assist
examiners in risk-focusing examination procedures in institutions with low risk profiles. The
FDIC developed the guidelines for examinations of 1 and 2 rated, “well-capitalized” banks with
total assets of $250 million or less. DSC expanded and modified the MERIT procedures for all
examinations commencing after January 31, 2004 as specified below:

      The total asset threshold for eligibility was increased from $250 million to $1 billion.
      The basis for selecting the target loan penetration ratio range was changed from the
       composite rating to the asset quality rating. In addition, this change was accompanied by
       a change from looking back at the last two examinations’ composite rating to the last
       examination’s asset quality rating.
      The subprime lender exclusion was broadened to encompass all banks identified on
       DSC’s Quarterly Lending Alert (QLA).
      “Well-Capitalized” banks having a “1” or “2” composite rating was changed to “Well-
       Capitalized” banks having a “1” or “2” composite rating for the two most recent
       examinations that meet the additional criteria described herein are eligible for the MERIT
       guidelines.

Additional MERIT eligibility factors Memorandum 2004-001 follow:

      Stable Management - Banks that have management teams that have not exhibited
       significant changes in operating management or boards of directors since the prior
       examination.
      No Change in Control - Banks that have experienced a significant change in ownership or
       a change in control since the prior examination are ineligible for the MERIT guidelines.
      No Significant Adverse External Factors - Natural disasters or local and national adverse
       economic conditions could result in the exclusion of a bank from MERIT.
      No De Novo, Niche, or Banks identified on DSC’s Quarterly Lending Alert. These
       banks are excluded from MERIT. De novo banks are institutions that have been insured
       for less than three years. A niche bank could be any specialized type of bank, such as a
       credit card or Internet bank. Currently, the QLA includes:
           o Institutions in which subprime loans represent 25 percent or more of Tier 1
               capital;
           o Institutions in which high loan-to-value loans represent 25 percent or more of
               Tier 1 capital;
           o Institutions that, as a significant part of their business, make or purchase loans for
               sale or securitization and have those loans serviced and held off-premises by
               third parties or affiliates;
           o Institutions in which residual assets represent 25 percent or more of Tier 1 capital;
               and
           o Institutions directly or indirectly engaged in payday lending.




                                               16
                                                                                     APPENDIX II


          No Significant Change in Risk Profile Evident from Off-Site Analysis or Monitoring
           Systems – The presence of a bank on the Growth Monitoring System (GMS), Statistical
           CAMELS Offsite Rating (SCOR), and Real Estate Stress Test (REST), etc., will not
           automatically exclude a bank from the program. However, adverse conclusions derived
           from off-site monitoring systems should make a bank ineligible for MERIT guidelines.

          Effective Loan Grading System – Banks that have adequate formal or informal loan
           grading processes appropriate to the size and complexity of the institution should be
           considered for MERIT guidelines. Small, rural banks may not have a formal loan review
           or grading system, but if management exercises appropriate risk selection and identifies
           credit quality concerns, such banks should be considered for the MERIT guidelines.

          No Significant New Business Lines – Banks that have entered significant new business
           lines since the prior examination are ineligible for the MERIT guidelines.

          No Component rating of “3,” “4,” or “5” – Banks with any component rated “3,” “4,” or
           “5” at the prior examination, or in subsequent rating changes, are ineligible for the
           MERIT guidelines.

Even though a bank does not meet the criteria to qualify for the MERIT guidelines, examiners
are still encouraged to maximize the use of current risk-focused examination procedures in areas
that pose minimal risk to the institution. Banks meeting the criteria are divided into two
categories:

          Category 1 - Banks with an asset quality component rating of 1 at the last Examination.8
          Category 2 - Banks with an asset quality component rating of 2 at the last Examination.9

For examinations of Category 1 banks, the non-homogenous loan penetration ratio should
generally range between 15 percent and 25 percent. For Category 2 banks, the loan penetration
ratio should generally range between 20 percent and 30 percent. The EIC has the discretion to
target a loan penetration ratio that may be above or below these ranges, with the Field
Supervisor’s or Supervisory Examiner’s concurrence.




8
    Includes state banking authority examinations accepted by the FDIC.
9
    Ibid.


                                                         17
                                                                              APPENDIX III


             SAMPLE PRE-EXAMINATION PLANNING MEMORANDUM


                          PRE-EXAMINATION PLANNING REPORT
Name of Financial Institution: Location (City, State): Certificate Number:


Exam Date
                As of:
                Start:
                Est. End:
CM Name/Date of Contact:

                 PRE-EXAMINATION PLANNING DATA AND RATIOS
                            Current Examination      Prior Examination    Prior Examination
                                  SCOR                   CAMELS               CAMELS
Rating
Total Assets
Tier 1 Leverage Ratio
Class/Total Cap+ALLL
Hours

                              Current Quarter         Year-end Ratios    Prior Year-end Ratios
                                  Ratios
Asset Growth Rate
Net Interest Margin
Return on Avg. Assets
Tot PD* / Gross Loans
Loan Loss/Avg Tot Lns
ALLL / Total Loans
Net Non-Core Deposits
Loans/Total Assets
Non-int Exp/Avg Assets

*All past-due loans plus non-accrual divided by gross loans.


IRRSA (Pass/Fail):



RE Stress Test Score (if applicable):




                                                18
                                                                                 APPENDIX III



                           PRE-EXAMINATION PLANNING REPORT

Name of Financial Institution:            Location (City, State):       Certificate Number:

                              PRELIMINARY RISK ASSESSMENT

Instructions: Comment on any targeted risk areas that require additional examination resources
or low risk areas that will be subject to a limited review during the examination. Examiners are
not required to comment on areas subject to regular examination procedures. Examiners are
required to briefly discuss loan penetration strategies and summarize discussions held with
management. Examiners should discuss staffing only if estimated hours are expected to differ
substantially from budgeted hours, or if other concerns exist. Bullet comments are encouraged.
Each examiner is expected to contact the institution case manager for input prior to completing
this memorandum. The PEP should be submitted to the FOS for approval on the last business
day prior to the start of the examination. A copy of the PEP should be forwarded to the Case
Manager (CM).

     Summary of Discussion with Management and Summary of Discussion with CM


     Targeted Risk Areas (include CAMELS if applicable, specialty areas, IRC/audit, etc.)


     Low Risk Areas Subject to Limited Review (include a brief explanation of why area is
     considered low risk)


     Loan Scope


     Staffing Discussion


     Supervisory Action (if applicable)


     Documentation Methodology




FOS Approval :                                                                  Date:


                                                                                               2




                                                    19
                       Appendix IV


CORPORATION COMMENTS
     APPENDIX IV




21
                                                                                                                                                      APPENDIX V


                                                         MANAGEMENT RESPONSE TO RECOMMENDATIONS
     This table presents the management response on the recommendations in our report and the status of the recommendations as of the
     date of report issuance.
      Rec.                                                                     Expected              Monetary       Resolved:a      Dispositioned:b           Open or
     Number        Corrective Action: Taken or Planned/Status               Completion Date          Benefits       Yes or No         Yes or No               Closedc
                  DSC concurred with this recommendation. DSC will
         1        provide clarification to examiners indicating that the
                  PEP memoranda should include the reason for
                  examining an institution under the MERIT                     March 31, 2006             None            Yes               No                    Open
                  guidelines. This clarification will be provided in a
                  written memorandum.
                  DSC concurred with the intent of this
          2       recommendation, but offered an alternative
                  corrective action. DSC noted that the PEP
                  memorandum makes two different references to
                  examination procedures—“standard” and “regular”
22




                  procedures. The narrative section of the PEP
                  memorandum refers to “standard examination
                  procedures” with an explanatory footnote and the             March 31, 2006             None            Yes               No                    Open
                  example in the PEP memorandum refers to “regular
                  examination procedures.” DSC will amend the PEP
                  memorandum example to “standard examination
                  procedures” and indicated that doing so will provide
                  more clarity and more consistency throughout the
                  document.
     a
       Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                       management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
     implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
       Once the OIG dispositions the recommendation, it can then be closed.
